IDOE F 1325 8
(08.93)
United States Government                                                               Department of Energy



Memorandum
         DATE.   August 18, 2008                               Audit Report Number: OAS-L-08- 16
    REPLY TO
     ATTN OF     IG-34 (A08FN008)
    SUBJECT      Report on "Agreed-lJpon Procedures for Federal Payroll"
          TO     Director, Office of Human Capital Management, HC- I
                 Director, Policy and Internal Controls Management, NA-66


                 INTRODUCTION AND OBJECTIVE

                 The Office of Management and Budget Bulletin No. 07-04 (Bulletin), "Audit
                 Requirements for Federal Financial Statements," dated September 4, 2007, requires
                 an annual audit of civilian payroll of executive departments and other Government
                 agencies. Auditors are required to follow the agreed-upon procedures in Section I I
                 of the Bulletin to assess the reasonableness of life insurance, health benefits, and
                 retirement withholdings and contributions.

                 In Fiscal Year 2008, the Department of Energy (Department) used the Defense
                 Finance and Accounting Service to process its payroll. For this audit of civilian
                 payroll, the Department of Defense (DOD) Office of Inspector General (OIG) is the
                 principal auditor. Our office performed the agreed-upon procedures under a
                 Memorandum of Agreement with the DOD OIG. 'The purpose of this audit was to
                 determine whether life insurance, health and retirement benefits withholdings and
                 contributions for selected Department employees were reasonable and accurate.

                 CONCLUSIONS AND OHSEHVATIONS

                 Generally, the life insurance, health and retirement benefits withholdings and
                 contributions for our sample of 64 employees were reasonable and accurate. Our
                 review did, however, disclose two administrative errors. First, authorization of health
                 benefits payroll withholdings for one National Nuclear Security Administration
                 (NNSA) employee was supported by a health benefits election form that did not
                 contaln the employee's signature. Secondly, the official personnel file of one
                 Headquarters Office of Fossil Energy employee did not contain a life insurance
                 clection form to support the employee's waiver of insurance coverage.

                 We referred the NNSA error to the Human Resources Director, NNSA, Office of
                 Human Capital Management Services and the Headquarters error to the Deputy
                 Director, Headquarters Human Resources Operations Division, both of whom
                 indicated that the errors have been corrected and care would be taken to avoid such
                 errors in the future.
N o rcconlrncndations or suggestions are being nude and a response to this report is
not required. We appreciate the cooperation of your staff during our review.




                                 Rickey R. Hass
                                 Assistant Inspector General
                                    for Environment, Science, and Corporate Audits
                                 Office of Inspector General

Attachment

cc: Audit Liaison, Office of Chief Financial Officer, CF- 1.2
    Audit Liaison, Office of Human Capital Management, HC-30
                                                                               Attachment

SCOPE A N D METHODOLGY

Wc reviewcd amounts withheld and contributed by Department of Energy
(Department) employees for the pay period ending October 27, 2007. in accordance
with procedures under the Memorandum of Agreement (MOA) with the Department
uf Defense (DOD) Office of Inspector General (OIG) and steps 2 through 4 in Section
I I of the Office of Management and Budget Bulletin No. 07-04 (Bulletin). The audit
was perforn~edfrom February to July 2008 at program offices in Germantown, MD
and Washington, DC.

To accomplish the audit objective, we:

       Obtained a random sample of 64 Department employees from the DOD OIG,
       of which 34 had retirement, health benefits, and life insurance; 15 had no
       health benefits; and 15 had no life insurance;

       Reviewed Section 1 1 of the Bulletin, "Audit Requirements for Federal
       Financial Statements," Agreed-Upon Procedures;

       Contacted the responsible personnel official at each site to obtain copies of
       relevant supporting information from each employee's official personnel file
       (OPT;);

       Reviewed OPFs and obtained copies of employees' Notification of Personnel
       Action (SF-50); Health Benefits Election Form (SF-2809); Life Insurance
       Election Form (SF-2807); Thrift Savings Plan Election Form (TSP-1) and
       agency automated system reports;

       Calculated gross pay, health benefits, life insurance, and retirement
       withholdings and contributions for accuracy;

      Analyzed each document to verify that employees' withholdings and
      contributions were consistent with Defense Finance and Accounting Service
      data;

       Analyzed each document for anomalies;

      Spoke with Human Resources Officers and Personnel Specialists responsible
      for maintaining OPFs at each site to request additional documents; and,

      Summarized our analysis of each of the 64 sample items and provided the
      results to the DOD OIG.
W c cr>riducicd thc audit i n accordancc with generally accepted Government auditing
standards for financial audits. Our test work was limited to the procedures listed under
the M O A and contained in Section 1 I of the Bulletin. Because our review was
limited, It would not necessarily have disclosed all internal control deficiencies that
may have existed at the time of our audit. A draft of this report was provided to
National Nuclear Security Administration and Office of Human Capital Managernent
representatives on July 8, 2008, both of whom agreed with the report.
